U.S. Supreme Court No. 20-1345
SUPREME COURT OF THE UNITED STATES

KEITH ARNOLD,
Petitioner
v
CITY OF AUBURN,
Respondent

On Petition for Writ of Certiorari to the Supreme Court of the State of Washington

Certificate of word count
My Petition for Rehearing Petition for Writ of Certiorari (corrected), has 384 words
and complies with the word limitations.
I declare under penalty of perjury that the foregoing is true and correct. Executed
on June tb. 2021.

Keith L. Arnold
Pro Se Petitioner
404 22nd St. SE, Apt. A
Auburn, WA 98002-6838
KLA@b us. illinois. e du
253-931-5183

